        EVALUATION REPORT

                   Independent Evaluation of NRC’s
                     Implementation of the Federal
                   Information Security Management
                        Act for Fiscal Year 2009

                   OIG-10-A-04 November 17, 2009




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL




                                         November 17, 2009

MEMORANDUM TO:             R. William Borchardt
                           Executive Director for Operations



FROM:                      Stephen D. Dingbaum /RA/
                           Assistant Inspector General for Audits


SUBJECT:                   INDEPENDENT EVALUATION OF NRC’S
                           IMPLEMENTATION OF THE FEDERAL INFORMATION
                           SECURITY MANAGEMENT ACT FOR FISCAL YEAR 2009
                           (OIG-10-A-04)


Attached is the Office of the Inspector General’s (OIG) independent evaluation report
titled, Independent Evaluation of NRC’s Implementation of the Federal Information
Security Management Act for Fiscal Year 2009 (OIG-10-A-04).

The report presents the results of the subject audit. Agency comments provided during
an October 30, 2009, exit conference have been incorporated, as appropriate, into this
report.

Please provide information on actions taken or planned on the recommendation within
30 days of the date of this memorandum. Actions taken or planned are subject to OIG
followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, at 415-5911.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee on Reactor
 Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Jr., Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Corporate Management
 and Chief Information Officer, OEDO
Nader L. Mamish, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Officer
Roy P. Zimmerman, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
 and Environmental Management Programs
Cheryl A. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                           Independent Evaluation of
                          NRC’s Implementation of the
                 Federal Information Security Management Act
                              for Fiscal Year 2009




                                Contract Number: GS-00F-0001N
                                 Delivery Order Number: 20291

                                                   November 6, 2009




The views, opinions, and findings contained in this report are those of the authors and should not be construed as an official Nuclear Regulatory
                       Commission position, policy, or decision, unless so designated by other official documentation.
[Page intentionally left blank]
                                                                                         Independent Evaluation of
                                                                          NRC’s Implementation of FISMA for FY 2009


EXECUTIVE SUMMARY

BACKGROUND

           On December 17, 2002, the President signed the E-Government Act of 2002, which
           included the Federal Information Security Management Act (FISMA) of 2002. FISMA
           outlines the information security management requirements for agencies, which include
           an annual independent evaluation of an agency’s information security program1 and
           practices to determine their effectiveness. This evaluation must include testing the
           effectiveness of information security policies, procedures, and practices for a
           representative subset of the agency’s information systems. FISMA requires the annual
           evaluation to be performed by the agency’s Inspector General (IG) or by an independent
           external auditor. Office of Management and Budget (OMB) memorandum M-09-29, FY
           2009 Reporting Instructions for the Federal Information Security Management Act and
           Agency Privacy Management, dated August 20, 2009, requires the agency’s IG to report
           their responses to OMB’s annual FISMA reporting questions for IGs via an automated
           collection tool.

           Richard S. Carson and Associates, Inc. (Carson Associates), performed an independent
           evaluation of the Nuclear Regulatory Commission’s (NRC) implementation of FISMA
           for fiscal year (FY) 2009. This report presents the results of that independent evaluation.
           Carson Associates also submitted responses to OMB’s annual FISMA reporting questions
           for IGs via OMB’s automated collection tool.

           This report reflects the status of the agency’s information system security program as of
           the completion of fieldwork on September 30, 2009.

PURPOSE

           The objective of this review was to perform an independent evaluation of NRC’s
           implementation of FISMA for FY 2009.

RESULTS IN BRIEF

           Program Enhancements and Improvements

           Over the past 7 years, NRC has continued to make improvements to its information
           system security program and continues to make progress in implementing the
           recommendations resulting from previous FISMA evaluations. In 2007, the Commission
           approved the establishment of the Computer Security Office. The new office reports to
           the Deputy Executive Director for Corporate Management and Chief Information Officer
           (CIO) and is headed by the Chief Information Security Officer (CISO). The CISO plans,
           directs, and oversees the implementation of a comprehensive, coordinated, integrated,
           and cost-effective NRC information technology (IT) security program, consistent with


1
    For the purposes of FISMA, the agency uses the term “information system security program.”


                                                          i
                                                                     Independent Evaluation of
                                                      NRC’s Implementation of FISMA for FY 2009


applicable laws; regulations; Commission, Executive Director for Operations, and CIO
direction; management initiatives; and policies.

The agency has accomplished the following since the FY 2008 FISMA independent
evaluation:

      The agency made significant progress in certifying and accrediting its systems. In
       FY 2009, the agency completed certification and accreditation of 12 of the
       agency’s 22 operational systems and 1 of the agency’s 3 contractor systems. As
       of the completion of fieldwork for FY 2009, all but one of the operational NRC
       information systems had a current certification and accreditation, and all three of
       the systems used or operated by a contractor or other organization on behalf of the
       agency had a current certification and accreditation.
      The agency completed or updated security plans for 19 of the agency’s 22
       operational systems and for all 3 contractor systems.
      The agency completed annual security control testing for all agency systems and
       for all contractor systems.
      The agency completed annual contingency plan testing for all agency systems and
       for all contractor systems.
      The agency issued several new and updated policies related to the protection of
       personally identifiable information (PII) including an updated Computer Security
       Incident Response Policy, an updated PII Breach Notification Policy, an updated
       Computer Security Information Protection Policy, the Laptop Security Policy, and
       the Computer Security Policy for Encryption of Data at Rest When Outside of
       Agency Facilities.
      The agency issued the Agency-wide Rules of Behavior for Authorized Computer
       Use. The rules of behavior are provided to NRC computer users as part of the
       annual computer security awareness course, and apply to all NRC employees,
       contractors, vendors, and agents (users) who have access to any system operated
       by the NRC or by a contractor or outside entity on behalf of the NRC.
      The agency developed configuration guidance, configuration standards, and
       standard system security plans for laptops, as well as a new Laptop Security
       Policy.
      The agency identified all employees with significant IT security responsibilities
       and developed a plan for ensuring those employees receive appropriate role-based
       training.

Program Weaknesses

While the agency has made significant improvements in its information system security
program and has made progress in implementing the recommendations resulting from
previous FISMA evaluations, the independent evaluation identified two information
system security program weaknesses. One is a repeat finding from the FY 2008
independent evaluation, and the other is a repeat finding from several previous
independent evaluations.


                                        ii
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2009




              The NRC inventory interface information is still inconsistent (repeat finding).
              The quality of the agency’s plans of action and milestones still needs
               improvement (repeat finding).

RECOMMENDATION

This report makes one new recommendation to further address the repeat finding concerning the
interface information issue. Other recommendations for the repeat findings were made in
previous reports.

AGENCY COMMENTS

At an exit conference on October 30, 2009, agency officials agreed with the report’s findings and
recommendation and provided a few editorial changes, which the OIG incorporated as
appropriate. The agency opted not to submit formal comments.




                                                iii
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2009




[Page intentionally left blank]




              iv
                                                                        Independent Evaluation of
                                                         NRC’s Implementation of FISMA for FY 2009


ABBREVIATIONS AND ACRONYMS


BPIAD               Business Process Improvement and Applications Division
Carson Associates   Richard S. Carson and Associates, Inc.
CIO                 Chief Information Officer
CIS                 Center for Internet Security
CISO                Chief Information Security Officer
CSIRT               Computer Security Incident Response Team
CSO                 Computer Security Office
DISA                Defense Information Systems Agency
FDCC                Federal Desktop Core Configuration
FIPS                Federal Information Processing Standard
FISMA               Federal Information Security Management Act
FY                  Fiscal Year
IAS                 Information Assurance System
IATO                Interim Authorization to Operate
IG                  Inspector General
IRSD                Information and Records Services Division
ISA                 Interconnection Security Agreement
ISS                 Information System Security
ISSO                Information Systems Security Officer
IT                  Information Technology
LoB                 Line of Business
MD                  Management Directive
MOU                 Memorandum of Understanding
NIST                National Institute of Standards and Technology
NRC                 Nuclear Regulatory Commission
NSA                 National Security Agency
NSICD               NRC System Information Control Database
OIG                 Office of the Inspector General
OIS                 Office of Information Services
OMB                 Office of Management and Budget
P2P                 Peer-to-Peer
PIA                 Privacy Impact Assessment
PII                 Personally Identifiable Information
PMM                 Project Management Methodology
POA&M               Plan of Action and Milestones
SCAP                Security Content Automation Protocol


                                           v
                                                             Independent Evaluation of
                                              NRC’s Implementation of FISMA for FY 2009


SGI       Safeguards Information
SP        Special Publication
SSN       Social Security Number
SUNSI     Sensitive Unclassified Non-Safeguards Information
US-CERT   United States Computer Emergency Readiness Team




                                 vi
                                                                                                              Independent Evaluation of
                                                                                               NRC’s Implementation of FISMA for FY 2009


TABLE OF CONTENTS


Executive Summary ....................................................................................................... i
Abbreviations and Acronyms ...................................................................................... v

1 Background .............................................................................................................. 1 
2 Purpose .................................................................................................................... 1 
3 Findings.................................................................................................................... 1 
  3.1 FISMA Systems Inventory (Question 1) ........................................................ 3 
  3.2 Certification and Accreditation (Question 2a) .............................................. 4 
            NRC Has Made Significant Progress in Certifying and Accrediting Its Systems........................ 4 
    3.3     Security Controls Testing (Question 2b)....................................................... 5 
            NRC Has Completed Annual Security Control Testing for All Agency Systems and for All
                       Contractor Systems ............................................................................................. 6 
    3.4     Contingency Plan Testing (Question 2c) ...................................................... 7 
            Annual Contingency Plan Testing Was Completed for All Agency Systems and All Contractor
                          Systems ............................................................................................................... 7 
    3.5     Evaluation of Agency Oversight of Contractor Systems (Question 3a) ..... 8 
            Agency Oversight of Contractor Systems Meets FISMA Requirements..................................... 9 
    3.6     Evaluation of Quality of Agency System Inventory (Questions 3b-3g) ...... 9 
            FINDING A – The NRC Inventory Interface Information Is Still Inconsistent (Repeat Finding)
                        ........................................................................................................................... 10 
    3.7     Evaluation of Agency POA&M Process (Question 4)................................. 11 
            FINDING B – The Quality of the Agency’s POA&Ms Still Needs Improvement (Repeat
                          Finding) ............................................................................................................. 14 
            NRC Progress in Correcting Weaknesses Reported on Its POA&Ms Is Not Improving........... 16 
    3.8     IG Assessment of the Certification and Accreditation Process (Question
            5) ..................................................................................................................... 16 
            The NRC Certification and Accreditation Process Follows the NIST Framework ................... 19 
            NRC Is Managing and Operating a Certification and Accreditation Process In Compliance
                         With Its Policies ................................................................................................ 20 
    3.9     IG Assessment of Agency Privacy Program and Privacy Impact
            Assessment (PIA) Process (Question 6) ..................................................... 20 
            Policies That Comply With OMB Guidance in M-07-16, M-06-15, and M-06-16 Exist.......... 21 
            NRC Is Managing and Operating a Privacy Program In Compliance With Its Policies............ 23 
            A Policy for PIAs Has Been Developed and Documented ........................................................ 24 
            NRC Has Fully Implemented Its PIA Policy and is Managing and Operating a Process for
                           Performing PIAs................................................................................................ 25 
    3.10 Configuration Management (Question 7) .................................................... 25 
            3.10.1 Security Configuration Policy and Common Security Configurations ..... 25 
            NRC Security Configuration Policy .......................................................................................... 26 



                                                                        vii
                                                                                                     Independent Evaluation of
                                                                                      NRC’s Implementation of FISMA for FY 2009


           NRC Security Configuration Policy Implementation Status ..................................................... 27 
           3.10.2 Federal Desktop Core Configuration (FDCC).............................................. 29 
    3.11 Incident Reporting (Question 8)................................................................... 30 
    3.12 Security Awareness Training (Question 9) ................................................. 32 
           Annual IT Security Awareness Training ................................................................................... 32 
           IT Security Awareness Training for Employees With Significant IT Security Responsibilities
                         (Role-Based Training)....................................................................................... 33 
  3.13 Peer-to-Peer File (P2P) Sharing (Question 10)............................................ 34 
4 Report Recommendation ...................................................................................... 37 
5 Agency Comments ................................................................................................ 39 


Appendix.              SCOPE AND METHODOLOGY.................................................................... 41 



List of Tables

    Table 3-1. Total Number of Agency and Contractor Systems and Number
               Reviewed by FIPS 199 System Impact Level ...................................................3 
    Table 3-2. Total Number of Systems and Number Reviewed That Are Certified
               and Accredited by FIPS 199 System Impact Level..........................................4 
    Table 3-3. Total Number of Systems and Number Reviewed for Which Security
               Controls Have Been Tested and Reviewed in the Past Year by FIPS 199
               System Impact Level..........................................................................................5 
    Table 3-4. Total Number of Systems and Number Reviewed for Which
               Contingency Plans Have Been Tested in Accordance With Policy by
               FIPS 199 System Impact Level..........................................................................7 




                                                                 viii
                                                                                        Independent Evaluation of
                                                                         NRC’s Implementation of FISMA for FY 2009


1          Background

On December 17, 2002, the President signed the E-Government Act of 2002, which included the
Federal Information Security Management Act (FISMA) of 2002.2 FISMA outlines the
information security management requirements for agencies, which include an annual
independent evaluation of an agency’s information security program and practices to determine
their effectiveness. This evaluation must include testing the effectiveness of information security
policies, procedures, and practices for a representative subset of the agency’s information
systems. FISMA requires the annual evaluation to be performed by the agency’s Inspector
General (IG) or by an independent external auditor. Office of Management and Budget (OMB)
memorandum M-09-29, FY 2009 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management, dated August 20, 2009, requires the
agency’s IG to report their responses to OMB’s annual FISMA reporting questions for IGs via an
automated collection tool.

Richard S. Carson and Associates, Inc. (Carson Associates), performed an independent
evaluation of the Nuclear Regulatory Commission’s (NRC) implementation of FISMA for fiscal
year (FY) 2009. This report presents the results of that independent evaluation. Carson
Associates also submitted responses to OMB’s annual FISMA reporting questions for IGs via
OMB’s automated collection tool.

This report reflects the status of the agency’s information system security program as of the
completion of fieldwork on September 30, 2009.

2          Purpose

The objective of this review was to perform an independent evaluation of NRC’s implementation
of FISMA for FY 2009. The Appendix contains a description of the evaluation scope and
methodology.

3          Findings

Over the past 7 years, NRC has continued to make improvements to its information system
security program and continues to make progress in implementing the recommendations
resulting from previous FISMA evaluations. In 2007, the Commission approved the
establishment of the Computer Security Office (CSO). The new office reports to the Deputy
Executive Director for Corporate Management and Chief Information Officer (CIO) and is
headed by the Chief Information Security Officer (CISO). The CISO plans, directs, and oversees
the implementation of a comprehensive, coordinated, integrated, and cost-effective NRC
information technology (IT) security program, consistent with applicable laws; regulations;
Commission, Executive Director for Operations, and CIO direction; management initiatives; and
policies.


2
    The Federal Information Security Management Act of 2002 was enacted on December 17, 2002, as part of the E-
    Government Act of 2002 (Public Law 107-347) and replaces the Government Information Security Reform Act,
    which expired in November 2002.


                                                         1
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2009


The CSO was established to serve as the focal point for IT security and to provide vision,
leadership, and oversight in developing, promulgating, and implementing an end-to-end NRC IT
security strategy. The CSO is divided into three core areas: Cyber Situational Awareness,
Analysis, and Response Team; FISMA Compliance and Oversight Team; and Policy, Standards,
and Training Team. The CSO provides IT security oversight responsibility, coordinates the
overall agency IT security program, develops policies and procedures, and provides assistance
with security reviews, assessments, and plans to those offices requiring it.

The agency has accomplished the following since the FY 2008 FISMA independent evaluation:

      The agency made significant progress in certifying and accrediting its systems. In FY
       2009, the agency completed certification and accreditation of 12 of the agency’s 22
       operational systems and 1 of the agency’s 3 contractor systems. As of the completion of
       fieldwork for FY 2009, all but one of the operational NRC information systems had a
       current certification and accreditation, and all three of the systems used or operated by a
       contractor or other organization on behalf of the agency had a current certification and
       accreditation.
      The agency completed or updated security plans for 19 of the agency’s 22 operational
       systems and for all 3 contractor systems.
      The agency completed annual security control testing for all agency systems and for all
       contractor systems.
      The agency completed annual contingency plan testing for all agency systems and for all
       contractor systems.
      The agency issued several new and updated policies related to the protection of
       personally identifiable information (PII) including an updated Computer Security
       Incident Response Policy, an updated PII Breach Notification Policy, an updated
       Computer Security Information Protection Policy, the Laptop Security Policy, and the
       Computer Security Policy for Encryption of Data at Rest When Outside of Agency
       Facilities.
      The agency issued the Agency-wide Rules of Behavior for Authorized Computer Use.
       The rules of behavior are provided to NRC computer users as part of the annual computer
       security awareness course, and apply to all NRC employees, contractors, vendors, and
       agents (users) who have access to any system operated by the NRC or by a contractor or
       outside entity on behalf of the NRC.
      The agency developed configuration guidance, configuration standards, and standard
       system security plans for laptops, as well as a new Laptop Security Policy.
      The agency identified all employees with significant IT security responsibilities and
       developed a plan for ensuring those employees receive appropriate role-based training.

While the agency has made significant improvements in its information system security program
and has made progress in implementing the recommendations resulting from previous FISMA
evaluations, the independent evaluation identified two information system security program
weaknesses. One is a repeat finding from the FY 2008 independent evaluation, and the other is a
repeat finding from several previous independent evaluations.



                                                2
                                                                                     Independent Evaluation of
                                                                      NRC’s Implementation of FISMA for FY 2009




         The NRC inventory interface information is still inconsistent (repeat finding).
         The quality of the agency’s plans of action and milestones (POA&M) still needs
          improvement (repeat finding).

This report makes one new recommendation to further address the repeat finding concerning the
interface information issue. Other recommendations for the repeat findings were made in
previous reports.

The following sections present the detailed findings from the independent evaluation and are
organized based on the IG section of the OMB FISMA reporting tool. Each major section
corresponds to a question or set of questions from the template. Findings are presented in the
sections to which they are relevant.

3.1       FISMA Systems Inventory (Question 1)

                               OMB Requirement                                            OIG Response
    1. Identify the number of Agency and Contractor systems reviewed by
                                                                                     See Table 3-1 below.
    component and FIPS 199 system impact level (low, moderate, high).

                    Table 3-1. Total Number of Agency and Contractor Systems
                                       and Number Reviewed
                                 by FIPS 199 System Impact Level
                                                                                    Total Number of
                                                                                    Systems (Agency
                             Agency Systems            Contractor Systems
                                                                                     and Contractor
                                                                                       Systems)
      FIPS 199 System       Total       Number          Total        Number        Total        Number
        Impact Level       Number      Reviewed        Number       Reviewed      Number       Reviewed
            High               8            2             1              0            9             2
          Moderate            14            1             1              1           15             2
            Low                0            0             1              0            1             0
      Not Categorized          0            0             0              0            0             0
            Total             22            3             3              1           25             4

As of completion of fieldwork, NRC has 22 operational systems that fall under FISMA reporting
requirements.3 Of the 22, 8 are general support systems,4 and 14 are major applications.5 NRC



3
  NRC also has a number of major applications and general support systems currently in development. For FISMA
  reporting purposes, only operational systems are considered.
4
  A general support system is an interconnected set of information resources under the same direct management
  control that share common functionality. Typical general support systems are local and wide area networks,
  servers, and data processing centers.


                                                      3
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2009


has three systems operated by a contractor or other organization on behalf of the agency (one
major application and two general support systems). Of the three, one is operated by a federally
funded research and development center, and two are operated by private contractors. As
required by FISMA, Carson Associates selected a subset of NRC systems and contractor systems
for evaluation during the FY 2009 FISMA independent evaluation.

3.2       Certification and Accreditation (Question 2a)

                                  OMB Requirement                                              OIG Response
    2.a. Number of systems reviewed that are certified and accredited
    (certification and accreditation must be current) by FIPS 199 system                   See Table 3-2 below.
    impact level.

                   Table 3-2. Total Number of Systems and Number Reviewed
                                That Are Certified and Accredited
                               by FIPS 199 System Impact Level6
             FIPS 199 System                                                 Total            Number
                                       Agency           Contractor
               Impact Level                                                 Number           Reviewed
                    High                   8                  1                 9                 2
                 Moderate                  13                 1                14                 2
                    Low                    0                  1                 1                 0
             Not Categorized               0                  0                 0                 0
                   Total                   21                 3                24                 4

NRC Has Made Significant Progress in Certifying and Accrediting Its Systems

The FY 2005, FY 2006, and FY 2007 FISMA independent evaluations found that the majority of
NRC information systems were not certified and accredited. The lack of certification and
accreditations for the majority of the agency’s systems was reported as a significant deficiency in
the FY 2006 and FY 2007 FISMA independent evaluation reports. In FY 2008, 14 of the 28
operational NRC information systems and 8 of the 11 systems used or operated by a contractor
or other organization on behalf of the agency had a current certification and accreditation.

In FY 2009, the agency completed certification and accreditation of 12 agency systems and 1
contractor system. As of the completion of fieldwork for FY 2009, all but one of the operational
NRC information systems had a current certification and accreditation, and all three of the
systems used or operated by a contractor or other organization on behalf of the agency had a
current certification and accreditation. The only system that was not certified and accredited is
an aging mainframe system that is in the process of being replaced. Due to system development
issues, the certification and accreditation of the replacement system is now scheduled for
5
  A major application is a computerized information system or application that requires special attention to security
  because of the risk and magnitude of harm that would result from the loss, misuse, or unauthorized access to or
  modification of the information in the application.
6
  One agency system is currently not certified and accredited.


                                                          4
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2009


completion by the end of this calendar year. The operational legacy system did undergo annual
security control testing in FY 2009.
3.3     Security Controls Testing (Question 2b)

                             OMB Requirement                                      OIG Response
 2.b. Number of systems reviewed for which security controls have
 been tested and reviewed in the past year by FIPS 199 system impact          See Table 3-3 below.
 level.

              Table 3-3. Total Number of Systems and Number Reviewed
      for Which Security Controls Have Been Tested and Reviewed in the Past Year
                           by FIPS 199 System Impact Level
          FIPS 199 System                                        Total           Number
                                 Agency        Contractor
            Impact Level                                        Number          Reviewed
                High                 8               1             9                 2
              Moderate              14               1             15                2
                 Low                 0               1             1                 0
           Not Categorized           0               0             0                 0
                Total               22               3             25                4

Annual Security Control Testing – Background

FISMA requires agencies to develop, document, and implement an agencywide information
security program that includes periodic testing and evaluation of the effectiveness of information
security policies, procedures, and practices, to be performed with a frequency depending on risk,
but no less than annually. Such testing shall include testing of management, operational, and
technical controls of every information system identified in the inventory required by FISMA.

Security assessments are conducted to determine the extent to which the controls are
implemented correctly, operating as intended, and producing the desired outcome with respect to
meeting the security requirements for the system. To satisfy the annual FISMA assessment
requirement, organizations can draw upon the security control assessment results from any of the
following sources, including but not limited to: (1) security certifications conducted as part of an
information system accreditation or reaccreditation process, (2) continuous monitoring activities,
or (3) testing and evaluation of the information system as part of the ongoing system
development life cycle process (provided that the testing and evaluation results are current and
relevant to the determination of security control effectiveness). Existing security assessment
results are reused to the extent that they are still valid and are supplemented with additional
assessments as needed. OMB does not require an annual assessment of all security controls
employed in an organizational information system. In accordance with OMB policy,
organizations must annually assess a subset of the security controls based on: (1) the FIPS 199
security categorization of the information system, (2) the specific security controls selected and
employed by the organization to protect the information system, and (3) the level of assurance
(or confidence) that the organization must have in determining the effectiveness of the security


                                                 5
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2009


controls in the information system. It is expected that the organization will assess all of the
security controls in the information system during the 3-year accreditation cycle. The
organization can use the current year’s assessment results obtained during security certification
to meet the annual FISMA assessment requirement.

The FY 2009 FISMA guidance stated that agencies are required to use FIPS 200, Minimum
Security Requirements for Federal Information and Information Systems, and National Institute
of Standards and Technology (NIST) Special Publication (SP) 800-53, Recommended Security
Controls for Federal Information Systems, for the specification of security controls and NIST SP
800-37 and SP 800-53A, Guide for Assessing the Security Controls in Federal Information
Systems, for the assessment of security control effectiveness.

The agency CIO issued a memorandum in January 2009 requiring system owners to complete
annual contingency plan testing and annual security controls testing of all major applications and
general support systems. System owners were required to prepare a schedule of planned
contingency plan testing and annual security controls testing, with a completion date that does
not exceed one year from the last time such testing was performed. Systems that were
authorized to operate within the past fiscal year have already had their security controls tested
and, therefore, do not require additional annual security control testing. The CSO identified a set
of 48 core controls that must be assessed annually for all systems. System owners were required
to select additional controls with an emphasis on controls associated with POA&M items that
have been closed within the past year, with additional controls selected from the Access Control,
Configuration Management, Contingency Planning, Incident Response, System Maintenance,
and System and Services Acquisition control families. System owners were also required to
select a subset of controls from the system’s security plan that have not been assessed since the
authority to operate was granted to the system or since the last annual security control testing
was performed.

NRC Has Completed Annual Security Control Testing for All Agency Systems and for All
Contractor Systems

Twelve of the agency’s 22 operational systems and 1 of the agency’s 3 contractor systems were
authorized to operate in the past fiscal year and, therefore, did not require additional annual
security control testing. The remaining 10 agency systems and 2 contractor systems required
annual security control testing. As of the completion of fieldwork for FY 2009, annual security
control testing was completed for the 10 agency systems and the 1 contractor system that
required annual security control testing. In addition, while not required, the agency performed
annual security control testing on two of the agency’s operational systems that were authorized
to operate in the past fiscal year.




                                                 6
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2009


3.4    Contingency Plan Testing (Question 2c)

                            OMB Requirement                                      OIG Response
 2.c. Number of systems reviewed for which contingency plans have
                                                                        See Table 3-4 below.
 been tested in accordance with policy by FIPS 199 system impact level.

               Table 3-4. Total Number of Systems and Number Reviewed
        for Which Contingency Plans Have Been Tested in Accordance With Policy
                            by FIPS 199 System Impact Level
          FIPS 199 System                                       Total           Number
                                 Agency       Contractor
            Impact Level                                       Number          Reviewed
                High                8               1             9                 2
              Moderate             14               1             15                2
                Low                 0               1             1                 0
          Not Categorized           0               0             0                 0
                Total              22               3             25                4

Contingency Plan Testing – Background

FISMA requires agencies to develop plans and procedures to ensure continuity of operations for
information systems that support the operations and assets of the agency. NIST SP 800-34,
Contingency Planning Guide for Information Technology Systems, states that contingency plans
should be tested at least annually and when significant changes are made to the information
system, supported business process(es), or the contingency plan. Management Directive (MD)
and Handbook 12.5, NRC Automated Information Security Program, states that the NRC shall
comply with the NIST guidance to include guidance related to the preparation of security
documentation (such as system security plans, IT risk assessments, and IT contingency plans)
and other applicable NIST automated information security guidance for IT security processes,
procedures, and testing. MD 12.5 also states that IT contingency plans for major applications
and general support systems shall be tested each year. A live test provides the best indication of
the adequacy of a contingency plan test. If a live test cannot be conducted due to operational
constraints, a simulated test may be conducted in lieu of the live test. NRC Information Systems
Security (ISS) and Office of Information Services (OIS) procedures also require annual
contingency plan testing for all major applications and general support systems, including
generating a contingency plan test report.

Annual Contingency Plan Testing Was Completed for All Agency Systems and All
Contractor Systems

The agency CIO issued a memorandum in January 2009 requiring system owners to complete
annual contingency plan testing and annual security controls testing of all major applications and
general support systems. System owners were required to prepare a schedule of planned
contingency plan testing and annual security controls testing, with a completion date that does
not exceed 1 year from the last time such testing was performed.


                                                7
                                                                                          Independent Evaluation of
                                                                           NRC’s Implementation of FISMA for FY 2009




As of the completion of fieldwork for FY 2009, contingency plan testing7 was completed for all
22 operational NRC information systems and for all 3 contractor systems. In addition, all 22
operational NRC information systems and all 3 contractor systems have current contingency
plans.

3.5       Evaluation of Agency Oversight of Contractor Systems (Question 3a)

                                 OMB Requirement                                               OIG Response
    3.a. Does the Agency have policies for oversight of contractors?                       Yes
         3.a(1). Is the policy implemented?                                                Yes

Oversight of Contractor Systems – Background

FISMA requires agencies to provide information security protections commensurate with the risk
and magnitude of harm resulting from unauthorized access, use, disclosure, disruption,
modification, or destruction of (1) information collected or maintained by or on behalf of the
agency or (2) information systems used or operated by an agency or by a contractor of an agency
or other organization on behalf of an agency.8

NRC defines two types of systems that are operated by a contractor or other organization on
behalf of NRC – contractor systems and e-Government systems. A contractor system is a system
that processes NRC information and is operated and maintained by a contractor, and an
e-Government system is a system that processes NRC information and is operated and
maintained by another Federal agency.

The agency follows the same policies, procedures, and guidance in MD and Handbook 12.5 for
contractor systems as it does for agency systems. All contractor systems must be certified and
accredited prior to processing any sensitive NRC information or connecting to the NRC
infrastructure and must undergo annual security control testing and annual contingency plan
testing. Contractor systems are also required to undergo recertification and re-accreditation per
NRC policy.

For e-Government systems, the agency requires the responsible NRC system owner to
demonstrate those systems meet FISMA requirements by providing proof of authority to operate,
annual security control testing, and annual contingency plan testing. The agency also requires a
privacy impact assessment and a security categorization for all e-Government systems. The
agency may also require service level agreements or memoranda of understanding/agreement
with those agencies.



7
  Any testing performed between September 1, 2008, and the completion of fieldwork would be considered as FY
  2009 test results.
8
  Information systems used or operated by a contractor of an agency or other organization on behalf of the agency
  refers to information systems that the agency considers to be either major applications or general support systems.


                                                          8
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2009


In addition to three contractor systems, NRC has seven e-Government systems, all considered to
be major applications. Oversight of these systems is the responsibility of the Federal agencies
operating the systems.

Agency Oversight of Contractor Systems Meets FISMA Requirements

As of the completion of fieldwork for FY 2009, all three contractor systems for which NRC has
direct oversight had a current certification and accreditation. One was authorized to operate in
FY 2009 and did not require additional annual security control testing. The other two had their
security controls tested and reviewed in the past year. All three have completed annual
contingency plan testing.

3.6    Evaluation of Quality of Agency System Inventory (Questions 3b-3g)

                           OMB Requirement                                       OIG Response
 3.b. Does the Agency have a materially correct inventory of major
 information systems (including national security systems) operated by     Yes
 or under the control of such Agency?
 3.c. Does the Agency maintain an inventory of interfaces between the
 Agency systems and all other systems, such as those not operated by       Yes
 or under the control of the Agency?
 3.d. Does the Agency require agreements for interfaces between
 systems it owns or operates and other systems not operated by or          Yes
 under the control of the Agency?
 3.e. The Agency inventory is maintained and updated at least
                                                                           Yes
 annually.
 3.f. The IG generally agrees with the CIO on the number of Agency-
                                                                           Yes
 owned systems.
 3.g. The IG generally agrees with the CIO on the number of
 information systems used or operated by a contractor of the Agency or     Yes
 other organization on behalf of the Agency.

Agency System Inventory – Background

FISMA requires agencies to develop and maintain an inventory of major information systems
operated by or under control of the agency. The inventory must include an identification of the
interfaces between each such system and all other systems or networks, including those not
operated by or under the control of the agency. The inventory must be updated at least annually
and must also be used to support information resources management.

MD and Handbook 12.5 also define requirements for the agency’s inventory of automated
information systems. The agency’s inventory must identify all interfaces between each system
and all other systems and networks, including those not operated by or under the control of the
agency. MD and Handbook 12.5 also require the agency CIO to establish procedures for



                                                9
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2009


interconnection of any IT device or system with the NRC IT infrastructure systems. It also
specifies requirements for connections to the NRC network infrastructure. Written management
authorization is required before establishing a connection between the NRC IT infrastructure and
another system that is not NRC controlled. Connections to other Government-owned systems
also may require the establishment of a memorandum of understanding (MOU).

The agency’s certification and accreditation process includes tasks, guidelines, and procedures
for completing interconnecting security agreements. Two of the work breakdown elements are
to establish agreements for needed interfaces and define interface specifications. Interconnection
security agreements (ISA) and MOUs are required artifacts for inclusion in a certification and
accreditation package (if applicable). The agency has developed procedures for creating ISAs
and MOUs and has developed standard templates for these documents.

To address findings from previous independent evaluations regarding the agency’s inventory, the
agency developed an automated inventory system, the NRC System Information Control
Database (NSICD), to house the inventory of automated information systems. The agency
inventory is maintained and updated at least annually. The agency issues data calls twice a year,
typically in January and August. Data call packages include an explanation of the data fields
found on the data call inventory sheets and instructions on how to verify and enter the data. The
agency also developed several procedures and guides to assist NRC offices with the data calls
and to assist the agency in maintaining the inventory data in the new system.

FINDING A – The NRC Inventory Interface Information Is Still Inconsistent (Repeat
Finding)

The FY 2008 FISMA independent evaluation found that very little interface information was
included in NSICD and that the interface information in NSICD was inconsistent with the
interface information included in system security plans. In response to recommendations from
the FY 2008 independent evaluation, the agency updated NSICD to include interface information
for all systems in the NRC inventory. The agency also developed a guide for the CSO’s
administrative staff for entering data into security records within NSICD to ensure interface
information is consistent with interface information in security plans and risk assessments.

Carson Associates reviewed security plans, risk assessments, and other IT security
documentation for the majority (19 of 25) of NRC and contractor systems to identify the
interfaces for those systems. Carson Associates then reviewed the records for those systems in
NSICD to determine if the agency’s inventory included the interfaces identified in the IT security
documentation. Carson Associates also analyzed the interface information in NSICD for
consistency within the inventory. For example, if system 1 listed interfaces with systems 2, 3,
and 4, then those systems should also list an interface with system 1.

Carson Associates found that the majority of the interface information for 19 of 25 systems was
inconsistent with information found in IT security documentation, as well as with interface
information within NSICD. While there is more interface information in NSICD than was found
during the FY 2008 independent evaluation, the information is still incomplete and inconsistent.




                                                10
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2009


The guide that the agency developed for the CSO’s administrative staff includes guidance on
entering interface information into NSICD. However, it suggests obtaining this information
from either the system’s security categorization or risk assessment. These documents are not
updated on a periodic basis, so the interface information found in these documents may not be
current. Carson Associates also found that some of the security plans, which are required to be
updated at least annually, did not include interface details, but referred the reader to other
documents, which in some cases were not as current as the security plans. As a result, the
interface information obtained from the security categorizations, risk assessments, and some
security plans did not reflect the actual interfaces for the system.

On October 9, 2009, the agency reported the recommendations 1 and 2 from the FY 2008
FISMA independent evaluation as closed. Recommendation 1 should remain open until the
agency corrects the inconsistencies that still exist in the inventory information in NSICD.
Recommendation 2 should also remain open until the procedures developed to ensure interface
information in NSICD is consistent with interface information in security plans and risk
assessments are further refined. The IG suggests that the agency add additional guidance to the
procedures on where to find current interface information, as well as how to ensure interface
information remains consistent within NSICD.

RECOMMENDATION

      The Office of the Inspector General recommends that the Executive Director for Operations:

      1. Develop and implement procedures to ensure interface information is kept up-to-date.

3.7      Evaluation of Agency POA&M Process (Question 4)

                             OMB Requirement                                      OIG Response
 4.a. Has the Agency developed and documented an adequate policy
 that establishes a POA&M process for reporting IT security                 Yes
 deficiencies and tracking the status of remediation efforts?
        4.a(1). Has the Agency fully implemented the policy?                No
 4.b. Is the Agency currently managing and operating a POA&M
                                                                            Yes
 process?
 4.c. Is the Agency’s POA&M process an Agency-wide process,
 incorporating all known IT security weaknesses, including IG/external
 audit findings associated with information systems used or operated        No
 by the Agency or by a contractor of the Agency or other organization
 on behalf of the Agency?
 4.d. Does the POA&M process prioritize IT security weaknesses to
 help ensure significant IT security weaknesses are corrected in a          No
 timely manner and receive appropriate resources?




                                                11
                                                                                       Independent Evaluation of
                                                                        NRC’s Implementation of FISMA for FY 2009


                                 OMB Requirement                                            OIG Response
    4.e. When an IT security weakness is identified, do program officials
    (including CIOs, if they own or operate a system) develop, implement,             Yes
    and manage POA&Ms for their system(s)?
    4.f. For Systems Reviewed:
          4.f(1). Are deficiencies tracked and remediated in a timely
                                                                                      No
          manner?
          4.f(2). Are the remediation plans effective for correcting the
                                                                                      Yes
          security weaknesses?
          4.f(3). Are the estimated dates for remediation reasonable and
                                                                                      No
          adhered to?
    4.g. Do program officials and contractors report their progress on
    security weakness remediation to the CIO on a regular basis (at least             Yes
    quarterly)?
    4.h. Does the Agency CIO centrally track, maintain, and
    independently review/validate POA&M activities on at least a                      Yes
    quarterly basis?

Agency POA&M Process – Background

FISMA requires agencies to develop, document, and implement an agencywide information
security program that includes a process for planning, implementing, evaluating, and
documenting remedial action to address any deficiencies in the information security policies,
procedures, and practices of the agency. MD and Handbook 12.5 requires system
owners/sponsors to ensure that a POA&M is developed, implemented, and maintained to track
the major weaknesses that have been identified for office-sponsored information systems. Each
office shall regularly update the CIO on its progress in correcting system weaknesses to enable
the CIO to provide the agency’s quarterly FISMA update report to OMB.

NRC has two primary tools for tracking IT security weaknesses associated with information
systems used or operated by the agency or by a contractor of the agency or other organization on
behalf of the agency. At a high level, NRC uses the POA&Ms required by OMB to track (1)
corrective actions from the OIG annual independent evaluation; (2) corrective actions from the
agency’s annual review; and (3) recurring FISMA and IT security action items, such as annual
security control assessments and annual contingency plan testing. The POA&Ms may also
include corrective actions resulting from other security studies conducted by or on behalf of
NRC.

The more specific corrective actions associated with the certification and accreditation process
(e.g., corrective actions resulting from risk assessments and security control testing) are tracked
in Rational® ClearQuest®9 as change requests using the project management methodology
process for change management. All certification and accreditation corrective actions arising

9
    Rational ClearQuest is an IBM software package used for software change management.


                                                        12
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2009


from the security control testing process and from vulnerability scans are imported into Rational
ClearQuest. A corrective action plan is generated directly from Rational ClearQuest. System
owners are responsible for remediation of each corrective action within the timeframes specified
in the corrective action plan using the project management methodology process for change
requests.

The agency has developed a process for requesting quarterly POA&M updates from system
owners, compiling the data into a consolidated source, reviewing it for accuracy, rolling up the
information, and reporting it to OMB. Five weeks prior to the quarterly submittal to OMB, the
agency sends out a data call to the offices asking them to update the current POA&Ms for their
systems and add new weaknesses to the POA&Ms. Three weeks prior to the quarterly submittal
to OMB, the agency receives the updated POA&M data from the system owners and enters the
data into NSICD. The agency also adds any new weaknesses identified from various sources
including OIS recommendations and system certification artifacts. The agency provides
instructions on providing the quarterly updates to the POA&M and specifies that data in only
four fields on the POA&M should be changed: resources, brief description of work/services
required, changes to milestones, and status.

The FY 2007 and FY 2008 FISMA independent evaluations found that the quality of the
agency’s POA&Ms needed improvement. Specifically, Carson Associates found that (1) the
metrics submitted to OMB often deviated from the actual POA&Ms, and (2) the agency is not
always following OMB and internal NRC POA&M guidance. Carson Associates also found that
the agency is closing weaknesses without sufficient evidence from the system owner. As a result
of recommendations from the FY 2007 FISMA independent evaluation, the agency has been
working on automating the POA&M process and is currently using NSICD to store, process, and
generate the POA&Ms. Subsequent to the FY 2007 FISMA independent evaluation, the agency
began analyzing a variety of tools to automate the POA&M process. In 2008, the agency
acquired the Environmental Protection Agency’s FISMA reporting solution, the Automated
System Security Evaluation and Remediation Tracking system, to further automate the POA&M
and continuous monitoring processes. However, the agency identified some problems with the
tool, and after six months of research and evaluation the CSO picked Xacta, which was recently
purchased, as the agency’s tool for automating the POA&Ms.

The agency has also developed draft POA&M procedures to ensure quality assurance is
emphasized. The draft procedures include a process for conducting independent verification and
validation of POA&Ms to assure their adequacy as part of the security assessment review
process. Additionally, CSO has acquired additional contract support to assist in establishing a
compliance review process in which CSO will review security documentation, conduct
vulnerability scanning, and meet with each system owner on an annual basis to verify the status
of remediation efforts, assess the comprehensiveness of planned corrective actions, and validate
the accuracy of tasks, responsibilities, and milestones for each outstanding weakness. These
activities will take place quarterly targeting approximately 25 percent of the overall number of
POA&Ms. Implementation of this process was scheduled for the third quarter of FY 2009, and
the CSO plans to start meeting with the system owners in the first quarter of FY 2010.




                                                13
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2009


The agency’s new POA&M procedures also require corrective actions to be ranked based upon
on the most critical security weaknesses and their impact on the agency’s mission. This ranking
should be reflected in the POA&M by listing identified weaknesses in priority order, irrespective
of the weakness ID (which is sequentially derived). The procedures state that the overall severity
of the weakness should be considered in conjunction with the system risk impact level when
prioritizing the mitigation of weaknesses. Weakness severity is the potential magnitude of loss
that could result from weakness exploitation. The POA&M includes a weakness severity (called
risk level) column that can be used to prioritize security weaknesses. However, the agency has
not implemented the process described above for prioritizing security weaknesses.

FINDING B – The Quality of the Agency’s POA&Ms Still Needs Improvement (Repeat
Finding)

As in previous independent evaluations, Carson Associates found that the quality of the agency’s
POA&Ms still needs improvement. In assessing the agency’s POA&M process, Carson
Associates found that (1) the POA&M does not always include known IT security weaknesses,
(2) deficiencies are not always remediated in a timely manner, and (3) estimated dates for
remediation are not always adhered to.

In addition, Carson Associates found that the following problems identified with the POA&Ms
in FY 2007 and FY 2008 still persist: (1) the metrics submitted to OMB often deviated from the
actual POA&Ms, (2) the agency is not always following OMB and internal NRC POA&M
guidance, and (3) the agency is closing weaknesses without sufficient evidence from the system
owner.

The POA&M Does Not Always Include Known IT Security Weaknesses

The POA&M process is an agencywide process, but does not always include known IT security
weaknesses from IG audits. The new agency POA&M procedures require new weaknesses to be
added to the POA&M within 10 days of discovery. Carson Associates identified five OIG
reports issued since May 2008 that identified IT security weaknesses. However, those
weaknesses were not added to the POA&M until more than 6 months after the reports were
issued. For example, the weaknesses from the FY 2008 FISMA independent evaluation were not
added to the POA&M until the 4th Quarter FY 2009. In addition, the weaknesses for each report
were added as one item on the POA&M for each report, instead of separate POA&M items for
each weakness. Carson Associates also determined that none of the recommendations from the
FY 2009 contingency plan testing, and not all of the weaknesses identified during the FY 2009
annual security control testing have been added to the POA&M.

Deficiencies Are Not Always Remediated in a Timely Manner

Carson Associates analyzed the POA&Ms for the four systems selected for evaluation in FY
2009 in order to characterize the timeliness of weakness remediation. Three of the four systems
had at least one weakness that was closed more than 9 months after the scheduled completion
date. One system had more than 25 percent of its closed weaknesses overdue by more than 9
months and 3 weaknesses that were closed over a year after their scheduled completion dates.



                                                14
                                                                                     Independent Evaluation of
                                                                      NRC’s Implementation of FISMA for FY 2009


Estimated Dates for Remediation Are Not Always Adhered To

Carson Associates analyzed the POA&Ms for the four systems selected for evaluation in FY
2009 in order to determine if estimated remediation dates are adhered to. Three of the four
systems have more than half of their open weaknesses more than 5 months overdue. One system
has more than half of its open weaknesses overdue by more than 9 months.

Metrics Submitted to OMB Deviate From the Actual POA&Ms

As in previous independent evaluations, Carson Associates found discrepancies between the
metrics submitted to OMB and the actual POA&Ms. The most common errors causing the
discrepancies are:

          Counting weaknesses as closed in more than one quarter.
          Counting weaknesses as closed when they have not been closed by the OIG.
          Not counting weaknesses as closed when they have been closed by the OIG prior to the
           cutoff date for POA&M reporting.
          Reporting weaknesses as on track when they are actually delayed.
          Reporting weaknesses as delayed when they are still on track.

The Agency Is Not Always Following OMB and NRC Internal POA&M Guidance

As in previous FISMA evaluations, Carson Associates also found that the agency is not always
following OMB’s POA&M guidance. The agency is also not following NRC internal POA&M
guidance. The following are some examples of deviations from OMB and NRC internal
POA&M guidance found on the POA&Ms that were analyzed.

          Weaknesses with completion dates over a year old are not always removed from the
           POA&Ms. OMB guidance10 states that weaknesses that are no longer undergoing
           correction and have been completely mitigated for over a year should no longer be
           reported in the agency POA&M.
          Weaknesses with changes made to scheduled completion dates. OMB guidance states
           that once an agency has completed the initial POA&M, no changes should be made to the
           scheduled completion date.
          Weaknesses without scheduled completion dates. Several POA&M items added to the 1st
           Quarter FY 2009 POA&M and the 4th Quarter FY 2009 POA&M did not have scheduled
           completion dates.
          Multiple weaknesses added under one POA&M item. Carson Associates identified five
           OIG reports issued since May 2008 that identified IT security weaknesses. The
           weaknesses for each report were added as one item on the POA&M for each report,
           instead of separate POA&M items for each weakness.


10
     OMB Memorandum M-04-25, FY 2004 Reporting Instructions for the Federal Information Security Management
     Act.


                                                      15
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2009


         Weaknesses not properly marked to indicate they were closed in a previous quarter, but
          are being reported as closed in a later quarter (NRC requirement).

The Agency Continues to Close Weaknesses Without Sufficient Evidence from the
System Owners

As in the FY 2008 FISMA independent evaluation, Carson Associates found that the agency is
sometimes closing weaknesses without sufficient evidence from the system owners. During our
analysis of weaknesses identified during the FY 2009 annual security control testing, we found
many instances where weaknesses that had been previously closed were still found to be present.
In some instances, the weaknesses were added back to the POA&M with the FY 2009 annual
security control testing results.

NRC Progress in Correcting Weaknesses Reported on Its POA&Ms Is Not Improving

The agency progress in correcting weaknesses reported on its POA&Ms is not improving. In FY
2007 the agency corrected 35 percent of its program level weaknesses and just over 23 percent of
its system level weaknesses. In FY 2008 (quarters 1, 2, and 3), the agency corrected just over 45
percent of its program level weaknesses and just over 43 percent of its system level weaknesses,
which was somewhat of an improvement. However, in FY 2009 (FY 2008 4th quarter, and FY
2009 all quarters), the agency corrected only 30 percent of its program level weaknesses and just
over 40 percent of its system level weaknesses, which is less than in FY 2008.

RECOMMENDATION

The issue with the quality of the agency’s POA&Ms is a repeat finding from the FY 2007 and
FY 2008 FISMA independent evaluations. The recommendation from the FY 2007 FISMA
independent evaluation is still open, as the agency has not completed all of their planned
remediation activities. Therefore the OIG is not issuing a new recommendation for addressing
this weakness.

3.8       IG Assessment of the Certification and Accreditation Process (Question 5)

                               OMB Requirement                                     OIG Response
 5.a. Has the Agency developed and documented an adequate policy
 for establishing a certification and accreditation process that follows     Yes
 the NIST framework?
 5.b. Is the Agency currently managing and operating a certification
                                                                             Yes
 and accreditation process in compliance with its policies?
 5.c. For Systems reviewed, does the certification and accreditation
 process adequately provide:
          5.c(1). Appropriate risk categories                                Yes
          5.c(2). Adequate risk assessments                                  Yes
          5.c(3). Selection of appropriate controls                          Yes



                                                      16
                                                                                             Independent Evaluation of
                                                                              NRC’s Implementation of FISMA for FY 2009


                                  OMB Requirement                                                  OIG Response
        5.c(4). Adequate testing of controls                                                 Yes
        5.c(5). Regular monitoring of system risks and the adequacy of
                                                                                             Yes
        controls
 5.d. For systems reviewed, is the Authorizing Official presented with
 complete and reliable certification and accreditation information to
                                                                                             Yes
 facilitate an informed system Authorization to Operate decision based
 on risks and controls implemented?

Certification and Accreditation – Background

The security certification and accreditation of information systems is integral to an agency’s
information security program and is an important activity that supports the risk management
process required by FISMA. Information systems under development must be certified and
accredited prior to becoming operational. Operational information systems must be recertified
and re-accredited every 3 years in accordance with Federal policy11 and whenever there is a
significant change12 to the information system or its operational environment.

The following diagram13 illustrates the key activities, including certification and accreditation, in
managing enterprise-level risk, i.e., risk resulting from the operation of an information system.
As illustrated in the diagram, NIST has developed several standards and guidelines to support the
management of enterprise risk. NIST SP 800-37, Guide for the Security Certification and
Accreditation of Federal Information Systems, provides guidelines for certification and
accreditation.




11
    OMB Circular A-130, Management of Federal Information Resources, Appendix III, Security of Federal
   Automated Information Resources.
12
    Examples of significant changes to an information system that should be reviewed for possible re-accreditation
   include (1) installation of a new or upgraded operating system, middleware component, or application; (2)
   modifications to system ports, protocols, or services; (3) installation of a new or upgraded hardware platform or
   firmware component; and (4) modifications to cryptographic modules or services. Changes in laws, directives,
   policies, or regulations, while not always directly related to the information system, can also potentially affect the
   system security and trigger a re-accreditation action.
13
    The diagram was adapted from a diagram found in the NIST presentation “Building More Secure Information
   Systems: A Strategy for Effectively Applying the Provisions of FISMA,” dated July 29, 2005
   (http://csrc.nist.gov/sec-cert/PPT/fisma-overview-July29-2005.ppt).


                                                            17
                                                                                        Independent Evaluation of
                                                                         NRC’s Implementation of FISMA for FY 2009




Security certification is a comprehensive assessment of the management, operational, and
technical security controls14 that are planned or in place in an information system to determine
the extent to which the controls are (1) implemented correctly, (2) operating as intended, and (3)
producing the desired outcome with respect to meeting the security requirements for the
information system. The results of a security certification are used to reassess the risks and
update the system security plan, thus, providing the factual basis for an authorizing official15 to
render a security accreditation decision. Security certification can include a variety of
assessment methods (e.g., interviewing, inspecting, studying, testing, demonstrating, and
analyzing) and associated assessment procedures depending on the depth and breadth of
assessment required by the agency.

Security accreditation is the official management decision given by a senior agency official to
(1) authorize operation of an information system and (2) explicitly accept the risk to agency
operations, agency assets, or individuals based on the implementation of an agreed-upon set of
security controls. By accrediting an information system, an agency official accepts responsibility
for the information system’s security.




14
   Management controls are the safeguards or countermeasures that focus on the management of risk and the
   management of information system security. Operational controls are the safeguards or countermeasures that
   primarily are implemented and executed by people (as opposed to systems). Technical controls are the safeguards
   or countermeasures that are primarily implemented and executed by the information system through mechanisms
   contained in the hardware, software, or firmware components of the system.
15
   The agency refers to the authorizing official as the designated approving authority.


                                                        18
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2009


There are three types of accreditation decisions that can be rendered by authorizing officials: (1)
authorization to operate, (2) interim authorization to operate (IATO), and (3) denial of
authorization to operate.

      Authorization to Operate – issued if, after assessing the results of the security
       certification, the authorizing official deems that the risk to agency operations, agency
       assets, or individuals is acceptable.
      Interim Authorization to Operate – issued if, after assessing the results of the security
       certification, the authorizing official deems that the risk to agency operations, agency
       assets, or individuals is unacceptable, but there is an overarching mission necessity to
       place the information system into operation or continue its operation. An IATO is
       rendered when the security vulnerabilities identified in the information system (resulting
       from deficiencies in the planned or implemented security controls) are significant but can
       be addressed in a timely manner. An IATO provides a limited authorization to operate
       the information system under specific terms and conditions and acknowledges greater
       risk to the agency for a specified period of time. In accordance with OMB policy, an
       information system is not accredited during the period of limited authorization to operate.
       The duration established for an IATO should be commensurate with the risk to agency
       operations, agency assets, or individuals associated with the operation of the information
       system. When the security-related deficiencies have been adequately addressed, the
       IATO should be lifted and the information system authorized to operate.
      Denial of Authorization to Operate – issued if, after assessing the results of the security
       certification, the authorizing official deems that the risk to agency operations, agency
       assets, or individuals is unacceptable. The information system is not accredited and
       should not be placed into operation. If the information system is currently operational, all
       activity should be halted.

The NRC Certification and Accreditation Process Follows the NIST Framework

In order to evaluate the agency’s certification and accreditation process, Carson Associates
reviewed the certification and accreditation process and procedures located on the agency’s
project management methodology Web site, and reviewed accreditation decision memoranda
issued by the agency’s authorizing official. NRC’s certification and accreditation process is
documented on their Project Management Methodology (PMM) Web site and is part of the
agency’s ISS program. The objectives of the ISS Program are to:

      Implement appropriate security measures to protect NRC information and information
       systems.
      Ensure that security measures provide the appropriate level of protection and reliable
       access to NRC information and information systems by authorized individuals, and only
       by authorized individuals, and operate as intended.
      Ensure that senior agency officials exercise due diligence over information security for
       the information and information systems that support the operations and assets under
       their control.




                                                 19
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2009


The PMM Web site includes workflows for the authority to operate process and the continuous
monitoring process. Each workflow includes a work breakdown structure, team allocations, and
work product usage information. The PMM Web site includes templates for all required
certification and accreditation artifacts. The PMM Web site also includes guidance on the use of
common and inheritable controls.

NRC Is Managing and Operating a Certification and Accreditation Process In Compliance
With Its Policies

To determine if the agency is managing and operating a certification and accreditation process in
compliance with its policies, we reviewed the certification and accreditation documents for the
four systems selected for evaluation during the FY 2009 independent evaluation. We also
reviewed the agency’s continuous monitoring process, including the requirement for annual
security control testing, annual contingency plan testing, and annual security plan updates.
Carson Associates found that the certification and accreditation documents for the four systems
selected for evaluation were in compliance with agency policy, with a few minor deviations.
The agency has been provided detailed information on any deviations from policy that were
identified. Based on certification and accreditation documents that were reviewed, Carson
Associates determined that the NRC certification and accreditation process adequately provides:

         Appropriate risk categories.
         Adequate risk assessments.
         Selection of appropriate controls.
         Adequate testing of controls.
         Regular monitoring of system risk and the adequacy of controls.

Carson Associates also determined that for the four systems selected for evaluation, the
Authorizing Official was presented with complete and reliable certification and accreditation
information to facilitate an informed Authorization to Operate decision based on risks and
controls implemented.

3.9       IG Assessment of Agency Privacy Program and Privacy Impact
          Assessment (PIA) Process (Question 6)

                             OMB Requirement                                      OIG Response
 6.a. Has the Agency developed and documented adequate policies
 that comply with OMB guidance in M-07-16, M-06-15, and M-06-16             Yes
 for safeguarding privacy-related information?
 6.b. Is the Agency currently managing and operating a privacy
                                                                            Yes
 program with appropriate controls in compliance with its policies?
 6.c. Has the Agency developed and documented an adequate policy
                                                                            Yes
 for PIAs?




                                                 20
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2009


                            OMB Requirement                                       OIG Response
 6.d. Has the Agency fully implemented the policy and is the Agency
 currently managing and operating a process for performing adequate         Yes
 PIAs?

Policies That Comply With OMB Guidance in M-07-16, M-06-15, and M-06-16 Exist

On March 20, 2009, the OIS Director reported on the agency’s progress in reducing the risks
related to the breach of PII to the Commission. For example, since 2006, nine yellow
announcements have been issued implementing the OMB guidance. In addition, the staff has
reviewed all agency forms, removed the unnecessary collections of PII, and revised the forms as
appropriate. The staff has also developed a contract clause for protecting PII that may be
provided, collected, used, possessed, or processed in the course of performing work under an
NRC contract. The memorandum included as an attachment a comprehensive progress report on
all of the actions taken by the staff and the actions still to be completed. The following are some
of the actions taken by the agency to protect PII.

The following agency policies, procedures, and guidance have been developed and documented
in compliance with OMB M-07-16, Safeguarding Against and Responding to the Breach of
Personally Identifiable Information:

      Yellow Announcement YA-08-0093, Information Technology Implementation Policy –
       Updated Computer Security Incident Response and PII Incident Response, July 3, 2008:
       Announced revised computer security incident policy to include direction for responding
       to PII incidents.
      Computer Security Incident Response Policy, July 3, 2008.
      Yellow Announcement YA-07-0106, Safeguarding Against and Responding to the
       Breach of PII, September 19, 2007: Distributed OMB M-07-16 to all NRC employees,
       and announced publication of the NRC PII Breach Notification Policy and the NRC Plan
       to Eliminate the Unnecessary Collection and Use of Social Security Numbers (SSNs).
      PII Breach Notification Policy, September 19, 2007, updated February 9, 2009, to
       include credit monitoring services under certain circumstances to individuals whose PII
       has been unintentionally breached by NRC.
      Yellow Announcement YA-07-0096, Guidance for Periodic Review of Agency Network
       Drives for the Presence of PII, September 6, 2007: The NRC will review all agency-
       shared drives for the purpose of identifying and eliminating PII at least annually. The FY
       2008 review was completed September 19, 2008.
      Plan to Eliminate the Unnecessary Collection and Use of SSNs, September 19, 2007. A
       progress update was issued September 19, 2008.
      Electronic PII is discussed in the U.S. NRC Agency-wide Rules of Behavior for
       Authorized Computer Use, May 19, 2009. The rules of behavior are provided to NRC
       computer users as part of the annual computer security awareness course and apply to all
       NRC employees, contractors, vendors, and agents (users) who have access to any system
       operated by the NRC or by a contractor or outside entity on behalf of the NRC. Violation


                                                21
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2009


       of these rules will be reported to the user’s management and to the CSO. Non-
       compliance may subject the user to disciplinary action, as well as penalties and sanctions,
       including verbal or written warning, removal of system access privileges, reassignment to
       other duties, criminal or civil prosecution, and/or removal from Federal service,
       depending on the severity of the violation.
      The agency is currently developing annual PII responsibilities awareness and
       acknowledgement.

The following agency policies, procedures, and guidance have been developed and documented
in compliance with OMB M-06-16, Protection of Sensitive Agency Information:

      Yellow Announcement YA-09-0035, Information Technology Security Policy – Laptop
       Security Policy, April 2, 2009: Announced new policy for laptop security, including
       requirement that laptops use full disk encryption.
      Laptop Security Policy, April 2, 2009.
      Yellow Announcement YA-08-157, Information Technology Security Policy –
       Encryption of Data at Rest, December 19, 2008: Announced new encryption of data at
       rest policy and NUREG/BR-168, Revision 4.
      Computer Security Policy for Encryption of Data at Rest When Outside of Agency
       Facilities, Effective December 31, 2008
      NUREG/BR-0168, Revision 4, Guide for IT Security, Policy for Processing Unclassified
       Safeguards Information on NRC Computers, Effective December 31, 2008.
      Yellow Announcement YA-06-0069, Protection of PII, September 19, 2009 (regarding
       requirement #2 from OMB M-06-16): NRC remote broadband access through Citrix
       implements two-factor authentication by requiring two separate object authentications to
       obtain access to the NRC remote access services: (1) a digital certificate and (2) a user
       name and password. The user name and password are not stored on the workstation and
       are independent of the digital certificate authentication. However, it does not meet the
       criterion for “a device separate from the computer gaining access.” Because the risk
       associated with the lack of a separate device is low, the Executive Director for Operations
       endorsed access to PII through Citrix broadband at this time. The staff will be further
       evaluating the use of a separate device as part of our long-term actions. In the interim,
       the staff is prohibited from accessing systems containing PII through a dial-up modem
       unless they use an NRC laptop that is configured in accordance with security
       requirements approved by OIS. This prohibition does not apply to employees remotely
       accessing the Human Resources Management System or Employee Express to update
       their own personal information. Implementation of true two-factor authentication is to be
       implemented in FY 2011.
      Yellow Announcement YA-08-092, Information Technology Implementation Policy –
       Computer Security Information Protection Policy, June 26, 2008: Announced revised
       Computer Security Information Protection Policy to address the time-out requirement in
       M-06-16.
      Computer Security Information Protection Policy, June 26, 2008: Remote access to any
       system that processes non-public NRC information shall be constrained by a “time-out”


                                               22
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2009


       function that requires re-authentication after 30 minutes of inactivity. Mobile device
       access to any non-public NRC information shall be constrained by a “time-out” function
       that requires re-authentication after 30 minutes of inactivity.
      On September 16, 2008, the agency issued a memorandum regarding a new policy for
       logging and erasure of all computer-readable data extracts from databases holding
       sensitive information. The purpose of the memorandum is to expand upon previously
       issued policies and yellow announcements regarding the protection of sensitive
       information. The purpose of this policy is to ensure that Office Directors and Regional
       Administrators are aware of their responsibility to know where their sensitive information
       resides, when that information leaves their office’s control, and that the information is
       appropriately protected.

       On February 12, 2009, the NRC EDO withdrew the above-mentioned policy for logging
       and erasure of all computer-readable extracts from databases holding sensitive
       information. As most agencies are struggling with finding a way to implement the
       database extract logging requirement, OMB is reexamining the requirement and will be
       providing new guidance. Once the new guidance is received, the agency will issue an
       appropriate policy. The requirement to log extracts of PII specified in YA-2006-069
       remains in effect.

The following agency policies, procedures, and guidance have been developed and documented
in compliance with OMB M-06-15, Safeguarding Personally Identifiable Information:

      The agency sends out periodic reminders, typically via yellow announcement, to
       employees about their responsibilities for safeguarding PII, the rules for acquiring and
       using such information, as well as penalties for violating these rules. Announcements are
       sent at least once a year and can also be found on the agency’s Privacy Act Program Web
       page.
      The agency conducts reviews of agency policies and processes and has included the
       results of those reviews with their annual FISMA submissions, as directed by OMB,
       since the FY 2006 FISMA submission.
      On January 22, 2009, via yellow announcement, the agency announced the republication
       of the agency’s Privacy Act systems of records notices. The notices were published in
       their entirety in the Federal Register on January 6, 2009. The yellow announcement
       reminded employees of their responsibility to familiarize themselves with current
       guidance and procedures addressing privacy at the NRC and included links to NRC
       internal Web pages related to privacy at the NRC.

NRC Is Managing and Operating a Privacy Program In Compliance With Its Policies

The agency is managing and operating a privacy program, which is described in MD and
Handbook 3.2, Privacy Act, dated June 27, 2007. The agency also maintains a Privacy Act
Program Web site, which includes guidance on various topics related to the Privacy Act. The
agency also maintains a separate Web page dedicated to the protection of PII. This Web page
describes the agency’s activities related to the protection of PII and contains information such as
(1) frequently asked questions; (2) how to report inadvertent releases of PII; (3) links to OMB,


                                                 23
                                                                                             Independent Evaluation of
                                                                              NRC’s Implementation of FISMA for FY 2009


Office of Personnel Management, and NRC PII policy; (4) information on the agency’s PII task
force (e.g., background and charter, membership, and meeting minutes); and (5) information on
automated tools available to assist in searching for files that contain PII.

A Policy for PIAs Has Been Developed and Documented

Carson Associates evaluated the agency’s PIA process against the questions from the PIA and
Web Privacy Policies and Processes section of the Senior Agency Officials for Privacy Section
of the OMB FISMA Reporting Tool.

Does the agency have a written policy or process for determining whether a PIA is needed?

MD and Handbook 3.2 requires office directors and regional administrators to ensure that PIAs
are prepared and submitted to OIS before developing or procuring IT that collects, maintains, or
disseminates personal information about individuals or when initiating a new electronic
collection of personal information in identifiable form16 from 10 or more persons. In accordance
with the agency’s project management methodology, a PIA is required for all investments at the
inception phase of the development life cycle. PIAs are also part of the agency’s certification
and accreditation process. ISS-01-001, Revision 0, PIA Procedures, dated August 30, 2006,
requires a PIA (or update of an existing PIA) for each legacy system requiring recertification and
re-accreditation.

Does the agency have a written policy or process for conducting a PIA?

The agency has developed procedures (ISS-01-001) and a template for conducting PIAs. The
procedures provide a detailed discussion of how to complete a PIA and include guidance on how
to complete certain questions on the PIA. MD and Handbook 3.2 requires the OIS Business
Process Improvement and Applications Division (BPIAD) Director to ensure that PIAs are
conducted, reviewed, and approved before NRC collects information in an identifiable form or
before developing or procuring IT that collects, maintains, or disseminates such information.
The OIS Information and Records Services Division (IRSD) Director is required to ensure that
PIAs are reviewed to address the applicability of the Privacy Act, the Paperwork Reduction Act
information collections requirements, and records management requirements. Once IRSD has
completed its review and approved a PIA, IRSD is responsible for declaring the PIA as an
official agency record in the agency’s records management system.

Does the agency have a written policy or process for evaluating changes in business process or
technology that the PIA indicates as necessary?

PIAs are part of the agency’s project management methodology and certification and
accreditation process. Any changes in business process or technology indicated by a PIA would
be handled in accordance with these processes.



16
     Information in identifiable form is information that permits the identity of the individual to whom the information
     applies to be reasonably inferred directly or indirectly.


                                                            24
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2009


Does the agency have a written policy or process for ensuring that system owners and privacy
and IT experts participate in conducting the PIA?

Offices/system owners are responsible for preparing a PIA for each IT project/system they
sponsor and submitting it to OIS for review and approval. The PIA undergoes review several
times during development by privacy and IT experts, including the agency Privacy Program
Officer, IRSD privacy and records staff, the computer security team, and the agency’s Senior
Agency Information Security Officer.

Does the agency have a written policy or process for making PIAs available to the public in the
required circumstances and for making PIAs available in other than required circumstances?

PIAs for systems that collect information from or about members of the public are made publicly
available and posted on the NRC external Web site, unless making the PIA public would raise
security concerns or reveal classified (i.e., national security) or sensitive information (e.g.,
potentially damaging to a national interest, law enforcement effort, or competitive business
interest) contained in the assessment. The sponsoring office is responsible for performing the
review that determines if the PIA can be made public or not. Should an office wish to post on
the external Web site a PIA that does not collect information from or about members of the
public, the office must inform the Privacy Program Officer that it has completed a review and
that there is nothing in the PIA that would preclude it from being made public. The Privacy
Program Officer changes the availability of the document in the agency’s records management
system and has it posted on the agency’s external Web site.

NRC Has Fully Implemented Its PIA Policy and is Managing and Operating a Process for
Performing PIAs

To determine if the agency has fully implemented the PIA policy and is currently managing and
operating a process for performing adequate PIAs, we reviewed the PIAs for the four systems
selected for evaluation during the FY 2009 independent evaluation. The PIAs were completed
and reviewed in accordance with NRC policy. The Privacy Act does not apply to three of the
systems and does apply to one of the systems.

3.10   Configuration Management (Question 7)

3.10.1 Security Configuration Policy and Common Security Configurations

                           OMB Requirement                                        OIG Response
 7.a. Is there an Agency-wide security configuration policy?                Yes
 7.b. For each OS/platform/system for which your Agency has a
 configuration policy, please indicate the status of implementation for
 that policy.

FISMA requires agencies to develop policies and procedures that ensure compliance with
minimally acceptable system configuration requirements as determined by the agency. NIST SP
800-53 requires organizations to: (1) establish mandatory configuration settings for information


                                                25
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2009


technology products employed within the information system, (2) configure the security settings
of information technology products to the most restrictive mode consistent with operational
requirements, (3) document the configuration settings, and (4) enforce the configuration settings
in all components of the information system.

The agency has implemented several policies that address security configurations and their
implementation. System security screening guidelines were developed to prepare new systems
for implementation into the NRC production operating environment. The security screening
ensures that system configurations meet NRC network security requirements. The guidelines
outline the steps necessary to request and perform the security screening process, provide
guidance on managing and developing a secure system, and list industry best practices and
additional resources.

The agency has also posted guidance on the NRC internal Web site requiring the use of
hardening specifications for the different operating systems and software in use at the agency.
Hardening specifications in use at the agency include benchmarks developed by the Center for
Internet Security (CIS), the Defense Information Systems Agency (DISA) Gold Disk,17 National
Security Agency (NSA) security configuration guides, and custom hardening specifications
developed by the agency. The agency requires the use of the most recent version of the specified
hardening specifications.

NRC Security Configuration Policy

The agency’s security configuration policy is described in the system screening guidelines for
the NRC network, and on the CSO’s Standards Web page. In addition, all systems are required
to undergo vulnerability scanning and penetration testing as a part of security test and evaluation
during the certification and accreditation process. The purpose of the vulnerability scanning and
penetration is, in part, to determine whether the system’s configuration is compliant with the
established agency configuration standards.

The NRC has established a configuration policy for the following operating systems, platforms,
and systems:

NRC-Developed

          Stealth MXP Thumb Drive Configuration Standard
          NRC General Laptop Configuration Guidance
          NRC Laptop Configuration Standards
          Linux Red Hat Hardening Guidelines
          VMWare Hardening Guidelines
          Microsoft Windows 2003 Servers


17
      The DISA Gold Disk is a tool that allows a system administrator to scan a system for vulnerabilities, make
     appropriate security configuration changes, and apply security patches. The Gold Disk uses an automated process
     that configures a system in accordance with DISA Security Technical Implementation Guidelines.


                                                           26
                                                                            Independent Evaluation of
                                                             NRC’s Implementation of FISMA for FY 2009


      NRC Web 2.0 Implementation Standard
      NRC YouTube Standard

Industry Standards (e.g., CIS Benchmarks, DISA standards, and/or NSA standards)

      AIX
      HP-UX
      Mac OS X Systems
      Novell NetWare
      Solaris
      Microsoft Windows 2000 Servers
      Microsoft Windows 2008 Servers
      Microsoft Window XP Professional
      Microsoft Windows 2000 Professional
      Microsoft Windows 2003 Security Checklist
      Microsoft Windows 2008 Security Checklist
      Microsoft Exchange 2003 Security Technical Implementation Guide
      Cisco IOS Router (Level 1 and Level 2)
      Cisco PIX Firewall (Level 1 and Level 2)
      Apache Web Server (Level 1 and Level 2)
      Exchange Server 2003
      Oracle Database 8i (Level 1 and Level 2)
      Oracle Database 9i (Level 1 and Level 2)
      Oracle Database 10g (Level 1 and Level 2)
      SQL Server 2000 (Level 1 and Level 2)
      Internet Explorer
      Internet Information Services V 5.0
      Internet Information Services V 5.0
      Microsoft Office
      Netscape Navigator
      Microsoft .NET Framework
      Systems Management Servers 2003

NRC Security Configuration Policy Implementation Status

To determine the status of the implementation of agency configuration policies, Carson
Associates reviewed various security documentation for the four systems selected for evaluation
in FY 2009, including security plans, security test and evaluation reports, and vulnerability
assessment reports. The agency performs a vulnerability assessment during security control


                                               27
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2009


testing, which includes vulnerability scans, penetration tests, and hardening checks using the
following tools:

      Nessus – A general-purpose scanning tool that provides information on network-based
       vulnerabilities.
      DISA Gold Disk – A Department of Defense tool that tests Windows-based hosts for
       compliance with the DISA Gold standard, including file and registry access control and
       auditing settings, running services, installed applications and patches, and user rights.
      CORE Impact – A specialized penetration testing tool that provides automated testing of
       known exploits against detected platforms, protocols, and services.
      CIS Benchmarks – NRC-approved security hardening specifications for a variety of
       platforms and software, prepared by CIS (http://www.cisecurity.org/).
      NRC Linux Benchmark – An NRC-approved security hardening specification for the
       Linux systems that was developed from the Red Hat Linux Benchmark by CIS.

The following operating systems, platforms, and systems were identified for the four systems
selected for evaluation in FY 2009.

      IBM AIX 5
      Cisco IOS
      Cisco PIX Firewall
      Red Hat Enterprise Linux 4
      Sun Solaris 10
      Microsoft SQL Server 2000
      Microsoft SQL Server 2005
      Microsoft Windows Server 2000
      Microsoft Windows Server 2003
      Microsoft Windows NT
      Microsoft Windows XP

While the agency has a configuration policy for additional operating systems, platforms, and
systems, Carson Associates could only form an opinion on the status of the implementation of
agency configuration policies for those operating systems, platforms, and systems found in the
four systems selected for evaluation in FY 2009. Carson Associates determined that the
implementation status of the relevant policies is mid-implementation.




                                                28
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2009


3.10.2 Federal Desktop Core Configuration (FDCC)

                           OMB Requirement                                        OIG Response
 7.c. Indicate the status of the implementation of Federal Desktop
 Core Configuration (FDCC) at your Agency:
       7.c(1). Agency has documented deviations from FDCC standard
                                                                            Yes
       configuration.
       7.c(2). New Federal Acquisition Regulation 2007-004 language,
       which modified “Part 39—Acquisition of Information
                                                                            No
       Technology,” is included in all contracts related to common
       security settings.

Carson Associates reviewed several agencywide announcements and determined that the agency
has adopted and implemented FDCC standard configurations. Carson Associates reviewed the
agency’s reports to OMB and NIST and determined that the agency has documented deviations.
For example, on April 6, 2009, the agency’s designated approving authority approved a deviation
from FDCC regarding password aging. The agency adjusted the FDCC password to a longer
time period while retaining the existing minimum password length and password complexity
requirements. The rationale for the change was to reduce the burden on the user community
associated with the shorter password age.

In response to a recommendation regarding the implementation of FDCC at NRC from the FY
2008 FISMA independent evaluation, the CSO in coordination with OIS has developed the
following standards and provided them on the CSO Web page:

      Configuration standards for NRC laptops.
      Guidance for general laptops.
      Procedures for applying critical updates to Safeguards Information (SGI) laptops.
      An SGI Stand Alone Listed System Minimum Security Checklist to ensure appropriate
       laptop configuration.
      Standard system security plans for NRC laptops.
      Laptop security policy provided via memo to office directors and regional administrators
       and yellow announcement to staff.

OIS procedures require the use of standard images for desktop and laptop computers. All
computers connected to the NRC network receive FDCC settings through the use of group policy
object settings. Computers that are not attached to the network (standalone systems) are loaded
with these controls as part of the standard configuration image, and additional controls are
implemented through local security policy.

In addition, the agency has deployed NIST-validated Security Content Automation Protocol
(SCAP) scanning tools to scan a sample of network hosts. Standalone computers are scanned
periodically as they are brought in for service. The SCAP tools are also used to verify that the
agency is compliant with FDCC during the system certification and accreditation process. The


                                                29
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2009


CSO is currently fielding its Information Assurance System (IAS) to provide real-time
assessment of FDCC compliance for networked computers as part of its continuing monitoring
assurance activities. This completion of the IAS will provide agencywide, real-time FDCC
assessments. The system is currently scheduled for completion in FY 2010.

The agency also uses the System Center Configuration Manager patch management system to
keep desktop configurations consistent across NRC. Network Bulletins are used to announce
agency workstation updates. The announcements describe the nature of the upgrade and whether
or not a workstation restart is required after the patches are installed.

In the agency’s September 5, 2008, FDCC status update to OMB, the agency reported the
following:

      Total number of managed desktops and laptops (Windows XP SP2):                5,077
      Total number of XP desktops and laptops that are FDCC compliant:                  0

The agency has adopted and implemented FDCC standard configurations and has documented
the deviations. Of the 354 settings that were tested: 332 settings passed, 22 settings failed. The
raw score is 93.8 percent. Of the 22 settings that failed, one setting does not apply to Internet
Explorer version 6, and so is a false failure. Three settings reference a local support account that
does not exist on the desktops/laptops in the NRC environment, thus resulting in failures.
However, restrictions are set appropriately in the group policy. The remaining 18 settings that
failed FDCC compliance have been documented. Taking these four settings into account, the
NRC passes 332 settings out of 350 applicable settings. The adjusted score is 94.8 percent.

The Division of Contracts has updated their contracts writing system to include the revised
policy in Federal Acquisition Regulation 39.101. However, the CSO and Office of
Administration, Division of Contracts are still in the process of developing standard contract
language and clauses that specify which IT security policies and requirements, including the use
of common security configurations, should be included in IT acquisition contracts as required by
Federal Acquisition Regulation 39.101. It should be noted that the agency does include some IT
security-related sections and references in their IT acquisition contracts, including NRC IT
security training, NRC Management Directives and Handbooks related to security, badge
requirements for unescorted access to NRC facilities, and security requirements for IT access
approval.

3.11   Incident Reporting (Question 8)

                            OMB Requirement                                       OIG Response
 8.a. How often does the Agency comply with documented policies and
                                                                             91% to 100%
 procedures for identifying and reporting incidents internally?
 8.b. How often does the Agency comply with documented policies and
                                                                             91% to 100%
 procedures for timely reporting of incidents to US-CERT?
 8.c. How often does the Agency comply with documented policy and
                                                                             91% to 100%
 procedures for reporting to law enforcement?


                                                 30
                                                                                           Independent Evaluation of
                                                                            NRC’s Implementation of FISMA for FY 2009




On May 2, 2008, the agency issued a revised policy on computer security incident response and
PII incident response. The policy provides direction for responding to computer security
incidents affecting the NRC’s systems, networks, and users, as well as PII incidents and will be
included in the next revision of MD 12.5. The revised policy contains time frames for
responding to such incidents, based on the criticality of the affected resources and the incident;
formally establishes a Computer Security Incident Response Team (CSIRT) to respond to such
incidents; and outlines the CSIRT’s security incident response process. The CSIRT will include
staff from the following offices: CSO, OIS, Office of Administration, and Office of Nuclear
Security and Incident Response.

In addition to forming CSIRT, the agency has developed the following policies and guidelines
related to detecting, reporting, and responding to security incidents. These documents include
guidance on reporting incidents internally, reporting incidents to US-CERT, and reporting to law
enforcement.18

           Computer Security Incident Response Policy, May 14, 2008.
           Information Systems Security Incident Response Procedures, May 11, 2004 (Appendix B
            from MD 12.5).
           Draft CSIRT Responder Guide, February 25, 2009.
           Draft CSIRT Standard Operating Procedures, October 30, 2008.

The agency uses two tools for tracking incidents. An incident report form is used to capture the
full details of each incident reported to or discovered by the incident response team. An incident
response tracking sheet is used to capture summary information for each incident. This tracking
sheet provides high-level metrics regarding all incidents. The team performs self-audits of the
incident report forms to ensure there is a form for each entry on the tracking sheet and that each
entry on the tracking sheet has a corresponding incident report form. This self-audit is
performed at least quarterly.

CSIRT also conducts periodic incident response testing. The most recent test was in June 2009.
The agency performed a table-top exercise of the CSIRT response to a Category 1 incident
(unauthorized access). The test results were documented and included a description of the
scenario and responses to scenario questions on preparation; response and analysis; containment,
eradication, and recovery; and forensics. The test results also included a checklist of actions that
should have been taken during the exercise and documented lessons learned.

In order to determine how often the agency complies with documented policies and procedures
related to incident reporting, Carson Associates met with NRC staff responsible for incident
reporting and reviewed the incident response tracking form used by the agency.



18
     CSIRT does not report incidents directly to law enforcement. If an incident might warrant reporting to law
     enforcement, CSIRT notifies the OIG Computer Crimes Unit, who then decides whether or not external law
     enforcement should be involved.


                                                           31
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2009


3.12   Security Awareness Training (Question 9)

                            OMB Requirement                                        OIG Response
 9.a. Has the Agency developed and documented an adequate policy
 for identifying all general users, contractors, and system
                                                                             Yes
 owners/employees who have log-in privileges, and providing them
 with suitable IT security awareness training?
 9.b. Report the following for your Agency:
       9.b(1). Total number of people with log-in privileges to Agency
                                                                             4,840
       systems.
       9.b(2). Number of people with log-in privileges to Agency
       systems that received information security awareness training
       during the past fiscal year, as described in NIST Special             4,730 (98%)
       Publication 800-50, “Building an Information Technology
       Security Awareness and Training Program.”
       9.b(3). Total number of employees with significant information
                                                                             403
       security responsibilities.
       9.b(4). Number of employees with significant security
       responsibilities that received specialized training, as described
                                                                             130 (32%)
       in NIST SP 800-16, “Information Technology Security Training
       Requirements: A Role- and Performance-Based Model.”

All new NRC employees (including onsite contractors, interns, and summer hires) are required to
attend orientation the first day they report for duty. During the orientation, employees are given
a brief presentation, which includes a discussion on appropriate use of information technology
equipment. In addition, a representative from the Office of the General Counsel presents a
session on ethics that includes additional discussions on appropriate use of the Internet. In
addition, all NRC computer users, including federal employees, detailees, interns, and
contractors, are required to take an online computer security awareness course.

The agency also routinely issues network announcements on various security topics, including
hoax e-mail messages, phishing and spear phishing, spam, and the risks of using thumb drives.
In the spring of 2009, NRC began publishing a quarterly IT security newsletter, FRONTLINE.
The newsletters will provide the NRC with IT security awareness tips and techniques for
protecting one’s information.

Annual IT Security Awareness Training

NRC meets the Office of Personnel Management requirement to expose employees to security
awareness materials at least annually by (1) mandating all NRC staff take annual IT security
awareness training and by documenting who takes the annual training; and (2) using posters,
flyers, Web pages, and NRC announcements.




                                                32
                                                                                Independent Evaluation of
                                                                 NRC’s Implementation of FISMA for FY 2009


For FY 2009, all NRC computer users, including federal employees, detailees, interns, and
contractors, were required to take an online computer security awareness course. All NRC
employees and support contractors having network accounts were required to complete the
course within 60 days of the course’s availability, with a target cut-off date of August 3, 2009,
for completion of the course. The self-paced course consisted of two modules – a general
computer security awareness training module using ISS Line of Business (LoB) approved
courseware tailored to the general federal population, and an NRC-specific module tailored to
address protection of SGI and rules of behavior for all users of NRC computing resources.
Completion of both modules was required to fulfill the annual computer security requirement.
The agency also prepared a list of differences between NRC policy and the course content of the
first module as a companion document to the FY 2009 training. Office training coordinators
were required to track completion of the computer security awareness course and report weekly
completion percentages to the CSO’s office. In an announcement dated August 4, 2009, the
agency reported 4,726 users had completed the FY 2009 computer security awareness course –
the equivalent of 97 percent of NRC computer users. The CSO’s IT Security Training Web site
also includes a link to a Web page showing the completion rate for the IT security awareness
training by office.

IT Security Awareness Training for Employees With Significant IT Security
Responsibilities (Role-Based Training)

On April 3, 2008, the CISO issued a memorandum asking for support and action to ensure that
all employees with significant IT security responsibilities are appropriately identified. The
memorandum requires recipients of the memorandum to report back to the CISO by July 1,
2008, on the names of employees within their organization that have an IT security role as part of
their official duties. A second data call was issued July 13, 2009, asking recipients of the
memorandum to review and update the information provided in response to the April 2008 data
call. The memorandum requires recipients to report back to the CSO by August 10, 2009.

The agency also developed an IT Role-Based Training plan that states the requirement for
training for those with significant IT responsibilities, the type of training expected for each role,
and frequency of training per role. System owners are responsible for using the training plan
procedures to address the training needs of his/her personnel with IT roles. The training plan
defines the following IT security roles with significant IT security responsibilities that require
role-based training.

      IT Executive.
      System Owner.
      IT Auditor.
      IT Functional Manager.
      IT Senior Approving Official.
      IT Functional Management and Operations Personnel (including Information Systems
       Security Officers (ISSO), database administrator, network administrator system
       administrator, and IT manager).
      IT System Development Official.


                                                  33
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2009


      IT Project Officer.
      IT System Developer.

NRC is pursuing three approaches to address IT role-based training: NRC-provided resident
courses, use of ISS LoB providers, and commercially provided training and certifications.

      NRC-provided courses: The agency already provides IT security awareness training
       courses for ISSOs and for system and network administrators. These courses must be
       taken upon appointment to the role and every 3 years thereafter. The ISSO course was
       updated in June 2009, and the system and network administrator course was updated in
       December 2008. In addition, the agency provided a Defense in Depth – Securing
       Windows Server 2003 course to approximately 20 employees in January 2008 and
       provided role-based training for system owners in August 2008. The CSO also provided
       system administrators and ISSOs with a Microsoft Framework Essentials 4.0 Managing
       Change/Configuration/Risk course. The CSO is working with a contractor to draft and
       present additional specific role-based courses that address the following roles: ISSO,
       System Administrator, IT Manager, System Owner, Executive, and Senior Manager.
      ISS LoB Providers: The CSO coordinated with the Department of Defense for the use of
       its ISS LoB approved courseware for agencywide general computer security awareness.
      Commercial Training: The CSO IT Security Role-Based Training Web page provides
       lists of commercially available training in three areas: technical certification/courses,
       operating system-specific or database certifications/courses, and managerial/project
       management certification/courses. The Web page also provides a crosswalk between the
       12 IT security roles and the commercially available training.

3.13   Peer-to-Peer File (P2P) Sharing (Question 10)

                            OMB Requirement                                        OIG Response
 10. Does the Agency explain policies regarding the use of peer-to-
 peer file sharing in IT security awareness training, ethics training, or    Yes
 any other Agency-wide training?

In 2007, the Executive Director for Operations in a memorandum to the Commission
recommended prohibiting the installation of P2P software on NRC computers without explicit
written approval of the NRC Designated Approving Authority. In February 2008, the agency
issued a yellow announcement on P2P software that states:

       All employees, including staff and contractors, are prohibited from installing P2P
       software on agency computers without the explicit written approval of an agency
       Designated Approving Authority. In addition, employees are prohibited from
       processing Sensitive Unclassified Non-Safeguards Information (SUNSI) on home
       computers unless connected to and working within CITRIX, the NRC Broadband
       Remote Access System. Employees are prohibited from downloading or storing
       SUNSI to the hard drive of a home computer when connected to and working
       within CITRIX. Employees are also prohibited expressly from processing SUNSI


                                                 34
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2009


       on home computers even when a floppy disk, CD, DVD, or thumb drive is the
       storage media. Employees who work at home must perform electronic processing
       of SUNSI on either (1) a home computer within the virtual environment provided
       by the agency through CITRIX; or (2) an NRC-issued laptop with NRC-approved
       encryption software.

The CSO’s IT Security Policies Web page specifically states that the installation of P2P software
on NRC computers is prohibited unless explicitly approved by the NRC Designated Approving
Authority in writing. The CSO’s Web site also provides some P2P frequently asked questions.
The FY 2009 online computer security awareness course discussed the use of P2P and file-
sharing software.




                                               35
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2009




[Page intentionally left blank]




              36
                                                                            Independent Evaluation of
                                                             NRC’s Implementation of FISMA for FY 2009


4      Report Recommendation

The Office of the Inspector General recommends that the Executive Director for Operations:

    1. Develop and implement procedures to ensure interface information is kept up-to-date.




                                              37
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2009




[Page intentionally left blank]




              38
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2009


5      Agency Comments

At an exit conference on October 30, 2009, agency officials agreed with the report’s findings and
recommendation and provided some editorial changes, which the OIG incorporated as
appropriate. The agency opted not to submit formal comments.




                                               39
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2009




[Page intentionally left blank]




              40
                                                                           Independent Evaluation of
                                                            NRC’s Implementation of FISMA for FY 2009


                                                                                       Appendix

SCOPE AND METHODOLOGY

Carson Associates performed an independent evaluation of NRC’s Implementation of FISMA
for FY 2009. To conduct the independent evaluation, the team met with agency staff responsible
for implementing the agency’s information system security program, reviewed certification and
accreditation documentation for the agency’s operational information systems, and reviewed
other documentation provided by the agency that demonstrated its implementation of FISMA.

All analyses were performed in accordance with guidance from the following:

      National Institute of Standards and Technology standards and guidelines.
      Nuclear Regulatory Commission Management Directive and Handbook 12.5, NRC
       Automated Information Security Program.
      NRC Office of the Inspector General audit guidance.

This work was conducted between April 2009 and September 2009. Any information received
from the agency subsequent to the completion of fieldwork was incorporated when possible.
The work was conducted by Jane M. Laroussi, CISSP; Virgil Isola, CISSP; and Edwin Caron,
CISA, from Richard S. Carson and Associates, Inc.




                                              41
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2009




[Page intentionally left blank]




              42
